United States
Department of
Agriculture     Office of
                Inspector General
Office of
Inspector
General

No. 49

June 2003       Semiannual Report
                to Congress
                FY 2003—First Half
On the cover: The American flag and the U.S. Department of Agriculture (USDA) flag flew at half mast on September 11, 2002, during a
ceremony at USDA headquarters in Washington, D.C., to commemorate the 1-year anniversary of the events of September 11, 2001.
Office of Inspector General (OIG) photo by Bill Stover.




The U.S. Department of Agriculture prohibits discrimination in all its programs and activities on the basis of race, color, national origin,
sex, religion, age, disability, political beliefs, sexual orientation, or marital or family status. (Not all prohibited bases apply to all pro-
grams.) Persons with disabilities who require alternative means for communication of program information (Braille, large print, audiotape,
etc.) should contact USDA’s TARGET Center at 202-720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, D.C. 20250-9410 or call (202) 720-5964 (voice and TDD). USDA is an equal opportunity provider and
employer.
Abbreviations of Organizations
AMS      Agricultural Marketing Service
APHIS    Animal and Plant Health Inspection Service
ARS      Agricultural Research Service
CCC      Commodity Credit Corporation
CSREES   Cooperative State Research, Education, and Extension Service
CDFA     California Department of Food and Agriculture
CR       Office of Civil Rights
DCAA     Defense Contract Audit Agency
DHS      U.S. Department of Homeland Security
ERS      Economic Research Service
FAMU     Florida Agricultural and Mechanical University
FAS      Foreign Agricultural Service
FCIC     Federal Crop Insurance Corporation
FNS      Food and Nutrition Service
FS       Forest Service
FSA      Farm Service Agency
FSIS     Food Safety and Inspection Service
GAO      U.S. General Accounting Office
GIPSA    Grain Inspection, Packers and Stockyards Administration
HMPC     Hazardous Materials Policy Council
NASS     National Agricultural Statistics Service
NCRI     National Center for Resources Innovation
NITC     National Information Technology Center
NRCS     Natural Resources Conservation Service
OCFO     Office of the Chief Financial Officer
OCIO     Office of the Chief Information Officer
OGC      Office of the General Counsel
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPPM     Office of Procurement and Property Management
PPQ      Plant Protection and Quarantine
RBS      Rural Business-Cooperative Service
RD       Rural Development
RHS      Rural Housing Service
RMA      Risk Management Agency
RUS      Rural Utilities Service
USDA     U.S. Department of Agriculture
VS       Veterinary Services
i
Overview of USDA and OIG


To help the reader better understand the context in                  assistance programs, and links scientific research to
which we audit and investigate the programs and                      nutritional needs. The Food and Nutrition Service
operations of the Department, this section outlines the              (FNS) works to increase food security and reduce
missions of USDA’s agencies and the role OIG fulfills.               hunger by providing children and low-income people
The overriding USDA mission is to enhance the quality                with access to food, a healthy diet, and nutrition
of life for the American people by supporting agriculture.           education.
At OIG, we perform a complementary function that is
integral to USDA’s mission—we take as our motto and                • USDA ensures that the Nation’s commercial supply
our purpose, “Ensuring the Integrity of American                     of meat, poultry, and egg products is safe,
Agriculture.”                                                        wholesome, and correctly labeled. The Food Safety
                                                                     and Inspection Service (FSIS) sets standards for
This Department plays a role of great breadth and                    food safety; inspects meat, poultry, and egg
magnitude in American life, both at home and abroad,                 products; and informs the public about food safety
with hundreds of programs. While we at OIG do not                    issues. FSIS works with a number of national and
make policy or run programs, our auditors do their best              international organizations including the Meat and
to ensure that both policy and programs are formulated               Poultry Advisory Committee Staff and National
and carried out properly, and our investigators, as the              Advisory Committee on Meat and Poultry Inspection,
primary law enforcement arm of the Department,                       the National Advisory Committee on Microbiological
investigate significant criminal activities involving USDA           Criteria for Foods, and the Codex Alimentarius
programs, operations, and personnel.                                 Commission, an international organization created by
                                                                     the United Nations to promote the health and
HIGHLIGHTS OF USDA AGENCIES                                          economic interests of consumers while encouraging
                                                                     fair international trade in food.
When President Abraham Lincoln signed the legislation
creating USDA in 1862, he called it the “people’s                  • USDA facilitates the domestic and international
Department.” It touches all of our lives, every day, from            marketing of U.S. agricultural products and ensures
city to suburb, and small town to farm.                              the health and care of animals and plants. The
                                                                     Agricultural Marketing Service (AMS) facilitates the
• USDA helps keep America’s farmers and ranchers in                  strategic marketing of agricultural products in
  business as they face the uncertainties of weather                 domestic and international markets, while ensuring
  and markets. The Farm Service Agency (FSA) helps                   fair trading practices and promoting a competitive
  ensure the well-being of U.S. agriculture through the              and efficient marketplace. USDA agencies are active
  administration of farm commodity programs; farm                    participants in setting international and national
  operating, ownership, and emergency loans;                         standards, through international organizations and
  conservation and environmental programs;                           Federal-State cooperation. For example, AMS
  emergency and disaster assistance; domestic and                    provides services to promote the quality of U.S.
  international food assistance; and international export            agricultural products, including grading, quality
  credit programs. The Foreign Agricultural Service                  standards, and certification.
  (FAS) opens, expands, and maintains global market
  opportunities through international trade,                         The Animal and Plant Health Inspection Service
  cooperation, and sustainable development activities.               (APHIS) protects America’s animal and plant
  The Risk Management Agency (RMA) provides                          resources by safeguarding them from exotic invasive
  agricultural producers with the opportunity to achieve             pests and diseases, monitoring and managing pests
  financial stability through effective risk management              and diseases existing in the United States, resolving
  tools, such as crop insurance.                                     trade issues related to animal and plant health, and
                                                                     ensuring the humane care and treatment of animals.
• The Department works to harness the Nation’s                       The Grain Inspection, Packers and Stockyards
  agricultural abundance with a goal of ending hunger                Administration (GIPSA) facilitates the marketing of
  and improving nutrition and health in the United                   livestock, poultry, meat, cereals, oilseeds, and
  States and in many other places around the world. It               related agricultural products, and promotes fair and
  administers the food stamp and other nutrition                     competitive trading practices. GIPSA also provides


                                                             iii
  Federal grading standards and a national inspection             OIG’S ROLE IN USDA
  and weighing system for grain and oilseeds.
                                                                  Helping to identify and correct questionable practices
• USDA provides help to farmers and ranchers to                   and bring criminals to justice adds value to the
  promote the health of the land through conservation             Department’s programs and operations. OIG conducts
  programs administered by the Natural Resources                  and supervises audits and evaluations, as well as
  Conservation Service (NRCS) and FSA. NRCS                       investigations and law enforcement efforts relating to
  provides national leadership in a partnership effort to         USDA’s programs, operations, and employees. OIG’s
  help people conserve, maintain, and improve                     goal is to promote economy, efficiency, and
  America’s natural resources on the Nation’s 1.6                 effectiveness. In addition, investigators concentrate on
  billion acres of private and other non-Federal land.            preventing and detecting crimes, and assisting with, and
  Stewardship of 191 million acres of national forests            preparing for, the prosecution of criminal and civil
  and grasslands rests with the Forest Service (FS),              cases. Auditors perform financial and performance
  the largest USDA agency.                                        audits of USDA’s programs and activities.

• USDA provides research, analysis, and education to              We perform an array of work that is as diverse as USDA
  assist individuals and communities, and improve                 itself. Audit work might include visiting food stamp
  agricultural products. The Agricultural Research                retailers, reviewing crop insurance claims, reviewing
  Service (ARS) works to provide the scientific                   inspection controls at meat packing plants, and
  knowledge and technologies needed to ensure the                 analyzing financial statements and reports. We also
  viability of American agriculture. The Cooperative              audit programs to ensure that disaster assistance goes
  State Research, Education, and Extension Service                to producers who suffered losses and need help. As
  (CSREES) works with land-grant universities,                    Federal law enforcement officers, OIG special agents
  historically black colleges and universities, Hispanic-         conduct a wide range of criminal investigations. Some
  serving institutions, Native American institutions, and         involve theft, smuggling, bribery, extortion,
  other universities and public and private                       embezzlement, animal fighting, food tampering,
  organizations to advance research and education in              processing and sale of adulterated food products,
  the food, agricultural, and related sciences. The               threats against the food supply, false claims, misuse of
  Economic Research Service (ERS) is USDA’s                       loan funds, or other fraud against the Government.
  principal social science research agency. The                   Others involve workplace violence, including threats,
  National Agricultural Statistics Service (NASS)                 assaults, or homicide of Departmental employees, while
  serves the basic agricultural and rural data needs of           engaged in performance of official duties; and child
  the country by providing statistical information and            pornography perpetrated by USDA employees using
  services to farmers, ranchers, agribusinesses, public           Government systems and equipment. OIG special
  officials, and others.                                          agents are authorized to make arrests, execute
                                                                  warrants, and carry firearms.
• USDA helps rural communities, home to
  approximately 60 million Americans, develop, grow,              Our activities better ensure the Department’s protection
  and improve their quality of life by targeting financial        of production agriculture, the public, and USDA
  and technical resources to areas of greatest need,              employees, and we save the Government money.
  through activities of greatest potential. The Rural             Taxpayers expect and deserve to have their money
  Business-Cooperative Service (RBS) provides                     benefit those who are entitled. Funds for improperly
  financing and technical assistance to help build                implemented programs can be put to better use. Based
  competitive businesses and establish and sustain                on our audit work this reporting period, management
  agricultural cooperatives. The Rural Housing Service            officials agreed to recover $2.3 million and put an
  (RHS) provides financing and technical help for                 additional $30 million to better use. Our investigative
  needed community facilities and housing for very-               efforts resulted in $44.4 million in recoveries, fines,
  low- to moderate-income areas. The Rural Utilities              restitutions, claims established, and cost avoidance.
  Service (RUS) provides financial and technical                  Our investigations produced 247 indictments and 212
  assistance so rural areas can have modern,                      convictions. This report covers the period October 1,
  affordable electricity, telecommunications, public              2002, through March 31, 2003.
  water, and waste removal services.

                                                             iv
Contents


Message From the Inspector General ..................................................................................................................                            i
Overview of USDA and OIG ...................................................................................................................................                   iii
   Highlights of USDA Agencies ..............................................................................................................................                  iii
   OIG’s Role in USDA ............................................................................................................................................             iv
Contents ..................................................................................................................................................................     v
Homeland Security .................................................................................................................................................             1
   Front-Line Vulnerabilities .....................................................................................................................................             1
Information Technology ........................................................................................................................................                 5
Food Safety .............................................................................................................................................................       7
   Protecting the Food Supply .................................................................................................................................                 7
Public Corruption ...................................................................................................................................................           9
Feeding Programs ..................................................................................................................................................           10
   Food Stamp Program ..........................................................................................................................................              10
Rural Development ................................................................................................................................................            12
   Rural Business-Cooperative Service ...................................................................................................................                     12
Federal Crop Insurance .........................................................................................................................................              14
   Risk Management Agency ...................................................................................................................................                 14
Program Irregularities and Abuses ......................................................................................................................                      15
   Natural Resources Conservation Service ............................................................................................................                        15
   Agricultural Research Service .............................................................................................................................                15
   Animal and Plant Health Inspection Service ........................................................................................................                        15
Financial Management and Accountability .........................................................................................................                             16
   Financial Statement Audits for FY 2002 ..............................................................................................................                      16
   Departmental Administration ...............................................................................................................................                18
Summaries of Audit and Investigative Activities ................................................................................................                              19
Statistical Data .......................................................................................................................................................      20
   Audits Without Management Decision .................................................................................................................                       20
   Indictments and Convictions ................................................................................................................................               28
   Office of Inspector General Hotline ......................................................................................................................                 29
   Freedom of Information Act and Privacy Act Requests .......................................................................................                                30
Appendix I: Inventory of Audit Reports Issued
   With Questioned Costs and Loans ..................................................................................................................                         31
Appendix II: Inventory of Audit Reports Issued
   With Recommendations That Funds Be Put to Better Use ............................................................................                                          32
Appendix III: Summary of Audit Reports Released Between
   October 1, 2002, and March 31, 2003 ...............................................................................................................                        33




                                                                                         v
Homeland Security


                                                              Many border crossings were inadequately staffed.
 FRONT-LINE VULNERABILITIES
                                                              Consequently, APHIS could inspect only a small
                                                              percentage of incoming trucks, other vehicles, and rail
Inadequate Safeguards at Ports-of-Entry Could                 traffic. In addition, APHIS is heavily dependent on U.S.
Allow Foreign Pests and Diseases Into the United              Customs Service inspectors, whose knowledge of
States                                                        agricultural products and their associated risks is less
                                                              than that of their counterparts in APHIS. The agency
The Animal and Plant Health Inspection Service                has also approved shippers’ participation in the
(APHIS), through its Plant Protection and Quarantine          Customs Service’s Line Release Program without
(PPQ) unit, is responsible for inspecting agricultural        adequate review, which minimizes inspections of high-
products entering the United States to detect and             volume and low-risk products. These reduced
intercept foreign pests or diseases that could threaten       inspection levels can facilitate smuggling operations.
U.S. agriculture. APHIS-PPQ spent about $223 million
on these inspection programs in fiscal year (FY) 2001,        Because its programs of risk-assessment were not
and fielded approximately 3,300 inspectors and                systematic, APHIS’ FY 2000 Government Performance
technicians to screen arriving passengers and cargo at        and Results Act (GPRA) report to Congress did not
141 land, sea, and air ports-of-entry. The budget for         accurately reflect the agency’s accomplishments in
FY 2002 rose to approximately $405 million, including a       preventing the entry of pests and diseases. The
$50 million supplemental appropriation for homeland           compliance rate for vehicles crossing the borders was
security.                                                     based on incomplete information.

We concluded that although APHIS provides                     We recommended that APHIS redirect its risk studies to
considerable coverage of some entry points, it has left       assess the threat from carriers and cargoes that other
others vulnerable because it has not based its                indicators show are a potential risk or that have
inspection coverage on an effective systematic                received little study, and apply those studies effectively.
assessment of the risks involved with various pests and       A second party should review inspection data before
the pathways by which they can enter the country.             ports forward the results to headquarters for database
APHIS has a statistically based risk-assessment               input. We recommended that APHIS develop guidelines
system, but has not ensured that the various ports and        to ensure that sufficient numbers of inspections of all
other entry points apply a consistent methodology for         types are thoroughly performed, including those of rail
collecting data for higher level analysis. In addition, the   cargo. Finally, we recommended that APHIS implement
agency has not implemented an organizational strategy         controls over the collection, calculation, and reporting of
for interpreting and applying the results obtained from       performance data for GPRA.
risk-assessment reviews performed at the ports, and it
has not pursued identified potential deficiencies.            APHIS officials generally concurred and are taking
                                                              corrective actions, some already completed. Many of
APHIS management concluded that their inspection              the functions have been transferred to the U.S.
personnel were correctly concentrated on inspections of       Department of Homeland Security (DHS), with whose
air passengers and their baggage. At the ports we             OIG we have held preliminary meetings to ensure that
visited, about 65 percent of the PPQ inspectors were          corrective actions are addressed.
assigned to such duties, despite the fact that
interception rates for this pathway have traditionally        The Homeland Security Act of 2002 (P.L. 107-296)
been low in comparison to the resources committed. By         provided for the transfer from USDA of APHIS functions
contrast, staffing at cargo ports was based on pest           relating to the agricultural import and entry inspection
interception counts that did not consider the magnitude       activities and the Plum Island Animal Disease Center, to
or potential distribution of incoming shipments. Thus, in     DHS. The APHIS functions were to be transferred to
making staffing determinations, APHIS assigned the            DHS on March 1, 2003, and the Plum Island Animal
same weight to an interception of a single piece of fruit     Disease Center was to be transferred on June 1, 2003.
from an airline passenger as to the interception of a         Pursuant to the law, the Inspector General that
2,000-pound case of fruit from a cargo container whose        exercises oversight over any agency prior to transfer to
contents could be shipped to various points within the        DHS, shall continue to exercise oversight during the
country.

                                                                                                                         1
period of time between transfer of such agency to DHS        their preapproval and followup inspections of permit
and appointment of the Inspector General of DHS. As          applicants, (2) develop a system of accountable permit
such, not only will we continue to review those agencies     documents and mailing labels to allow them to monitor
and programs that remain with USDA, but we will also         incoming permit shipments and verify their validity upon
continue oversight of transferred agencies, as               arrival at ports-of-entry, (3) discontinue the practice of
mandated. Further, we will continue to work with DHS’s       allowing incoming passengers to hand-carry permit
OIG to ensure coordination and exchange of                   materials from the port-of-entry, and (4) establish
appropriate information, in order for both OIGs to carry     controls to ensure that permit-holders properly dispose
out their respective missions with respect to agriculture.   of imported hazardous materials when their permits
                                                             expire. Finally, we recommended that PPQ institute new
Inadequate Controls Over Permit Systems Could                controls and procedures to ensure that its permit
Allow Prohibited Materials To Be Illegally                   tracking system contains complete and accurate
Introduced Into the United States                            information on all permit-holders.

APHIS-PPQ issues permits for the importation and in-         The agency generally agreed with the report’s findings
country movement of plant pathogens and tracks them          and recommendations.
through its Joint Permit System, while Veterinary
Services (VS) issues permits under similar                   FS Needs To Expand Work With Other U.S.
circumstances for animal pathogens and tracks them           Agencies To Secure Borders
through its Permit Issuance Tracking System. These
systems contain tens of thousands of records. Under          We conducted a review to assess Forest Service (FS)
both systems, materials requiring a permit arrive at         involvement in securing U.S. borders encompassing
ports-of-entry in sealed packages bearing appropriate        National Forest System land, as part of our ongoing
documentation. PPQ staff at ports-of-entry check both        review of departmental vulnerability to terrorism. Our
VS and PPQ packages for proper documentation, but            audit determined that significant challenges need to be
their means of verifying the validity of incoming            addressed. FS is responsible for management of
shipments are limited. We disclosed several issues in        Federal lands that include approximately 1,000 miles of
our report.                                                  international borders. These areas are potentially
                                                             vulnerable to infiltration by unauthorized individuals. The
• PPQ and VS do not routinely perform inspections of         Border Patrol has overall responsibility for securing
  all new applicants for import permits.                     these borders but has limited resources to cover
                                                             national forest lands.
• PPQ’s computerized system for tracking the status of
  active and pending permits does not automatically          The FS Law Enforcement and Investigations
  flag permits that have expired or are about to expire,     organization has 620 law enforcement personnel to
  and it does not incorporate controls to ensure that        cover over 191 million acres. The agency has an
  APHIS personnel input complete information on new          insufficient number of officers assigned to the 7 national
  permits. PPQ and VS do not perform followup                forests that are contiguous with international borders.
  inspections to ensure that regulated materials             These law enforcement officers lack enforcement
  imported under permit are properly disposed of when        authority over illegal entry into the United States and
  the permit expires.                                        may not arrest persons crossing the border unless they
                                                             commit a crime over which FS has jurisdiction. In the
• PPQ and VS do not require accountable                      absence of such a crime, FS officers may only detain
  documentation to accompany shipments of permitted          suspicious persons until a Border Patrol agent arrives.
  material, which increases the risk that the permit
  system could be misused. APHIS also allows                 FS has agreed with our recommendation to formally
  incoming passengers, including foreign nationals, to       notify DHS of the issues raised in our report. The
  hand-carry permit packages.                                agency also agreed to actively participate with other
                                                             agencies to develop a cohesive, multiagency strategy
We recommended that both PPQ and VS take the                 for securing U.S. borders.
following steps: (1) develop written procedures covering



2
FS Needs To Improve Security Over Munitions and
Explosives

FS has custody of significant amounts of explosives and
is responsible for military artillery and munitions issued
to ski resort operators for avalanche control. FS did not
have an overall management program that effectively
ensured the safety and security of explosives and
munitions located on FS lands. Basic controls were not
always implemented, and those that were implemented
were not always followed. Even after the events of
September 11, 2001, FS did not sufficiently evaluate its
security program to address possible vulnerabilities.
These conditions have increased the vulnerability of
munitions and explosives to theft or misuse. Our review
disclosed the following vulnerabilities relating to
accountability and security:                                 Artillery shell stored at FS magazine. OIG photo.

• FS’s management information system was not                 Importer Pleads Guilty to Smuggling Charge
  designed to account for explosives and munitions
  magazines. As a result, FS could not readily               We began a joint investigation in February 2001 with the
  determine the locations and contents of magazines          California Department of Food and Agriculture (CDFA)
  located on FS lands.                                       after CDFA officials notified us that an importer of Asian
                                                             fruit had imported approximately 44,000 pounds of
• Duties for recordkeeping and conducting physical           prohibited fresh longans into the Port of Long Beach.
  inventories of explosives and munitions were not           The longans were infested with eight different species of
  separated. In some cases, recordkeeping was poor,          insect pests, including the Oriental fruit fly. The importer
  making inventory reconciliation difficult.                 made a false statement on the manifest that the longans
                                                             had been frozen and, therefore, could legally be
• Keys to magazines were not adequately safeguarded          imported into the United States from Thailand. The
  to prevent unauthorized access.                            importer bought the fresh longans for $9.13 per
                                                             container and sold them for as much as $57.50. At the
• FS and permittees did not conduct adequate                 time, frozen longans were selling for an average price of
  background investigations of staff who handled             $17.60 per container in the Los Angeles market. The
  explosives and munitions or who had access to them.        importer has pled guilty to a Federal felony smuggling
                                                             charge and is scheduled to be sentenced later this year.
• Finally, some magazines contained excessive
  stockpiles of munitions while others contained             Almost 1,400 Pounds of Marijuana Seized in Border
  expired and deteriorating supplies of explosives and       Blitz
  munitions.
                                                             In December 2002, OIG special agents participated in
FS concurred with our series of recommendations to           “Operation Fruitcake,” a joint law enforcement operation
correct these problems.                                      conducted at the Commercial Cargo Facility in Nogales,
                                                             Arizona, to determine whether smuggled agricultural
                                                             products were entering the United States. During the
                                                             operation, search of a cargo truck containing fruit
                                                             resulted in the seizure of 1,395 pounds of marijuana.
                                                             This operation was conducted in cooperation with
                                                             APHIS-PPQ Smuggling Interdiction and Trade
                                                             Compliance officers and various Federal, State, and
                                                             local agencies.


                                                                                                                       3
                                                           USDA became a participant in the program to sponsor
                                                           J-1 visa waivers, administered by the Department of
                                                           State. On September 26, 2001, USDA suspended its
                                                           processing of applications.

                                                           From 1996 until 2002, the doctor had fraudulently
                                                           participated in the USDA J-1 Visa Waiver Program as
                                                           an employer and had recruited J-1 visa physicians for
                                                           employment under the program. Applications falsely
                                                           showed foreign doctors were working in medically
                                                           underserved areas. The investigation is ongoing.

                                                           Food Stamp Traffickers Extradited From Canada

                                                           In August 1998, the owner of a Chicago grocery store
                                                           and his brother were indicted on a number of charges
Marijuana seized on the Arizona border. OIG photo.         after our investigation determined that, in 1994 and
                                                           1995, they conspired to illegally obtain and redeem over
Doctor Ordered To Pay $1 Million In J-1 Visa Waiver        $920,000 in food stamps and over $30,000 in Special
Case                                                       Supplemental Nutrition Program for Women, Infants,
                                                           and Children (WIC) instruments. The owner fled the
A west Texas doctor was sentenced to serve 3 years of      country prior to trial and remained a fugitive until he was
probation, fined $5,000, and ordered to pay $1 million     arrested in Alberta, Canada, on October 12, 2001.
for the cost of prosecution, and was ordered to provide    Following his extradition in early 2002, he was convicted
5 hours per week of free medical service to the indigent   of conspiracy, and, in September 2002, was sentenced
and needy of a west Texas city during his probationary     to 42 months in prison, and ordered to pay $1,036,473
period, after he pled guilty to misprision (concealment)   in restitution. The brother had been convicted at trial
of a felony in a J-1 visa waiver scheme.                   shortly after the original indictments. In 1999, he had
                                                           been sentenced to 37 months in prison and 3 years of
Most aliens admitted to the United States on a J-1 visa    supervised release, and was ordered to pay $1,031,873
to participate in educational exchange programs are        in restitution to the Food and Nutrition Service (FNS).
required to return to their home country or last           He was arrested in Canada, along with the storeowner,
permanent residence for 2 years before they are eligible   for parole violations. His arrest led authorities to
to apply for an immigrant visa, permanent residence, or    documents of interest in the September 11, 2001,
another nonimmigrant visa. The Attorney General can        terrorist attacks when it was learned he had been a
grant waivers to overcome this requirement, allowing       flight student at Lewis University in Romeoville, Illinois,
them to practice primary care medicine in medically        in the mid-1990s before dropping out. This information
underserved rural areas of the United States. In 1994,     was shared with the appropriate Joint Terrorism Task
                                                           Force.




4
Information Technology (IT)


Qualified Opinion of Internal Control Structure at           Qualified Opinion of Internal Control Structure at
NFC                                                          NITC

Our review of the internal control structure at the Office   Our audit of the internal control structure at the National
of the Chief Financial Officer (OCFO)/National Finance       Information Technology Center (NITC) for the period
Center (NFC) for the period October 1, 2000, through         October 1, 2001, through September 30, 2002, resulted
June 30, 2002, resulted in a qualified opinion. OCFO/        in a qualified opinion. Our audit disclosed that additional
NFC has made significant progress in improving its           actions were needed to comply with federally mandated
internal control structure. Most notably, OCFO/NFC has       security requirements. While NITC has made a
a sustained cash reconciliation process in place,            concerted effort to complete risk assessments, an
implemented a standard general ledger system, and            important step toward improving security, our review
improved the security over IT systems. We found,             found that NITC had not addressed all security program
however, that OCFO/NFC needs to                              planning requirements prescribed by Office of
                                                             Management and Budget (OMB) Circular A-130
• update its network map and list of Internet Protocol       (Management of Federal Information Resources) and
  (IP) addresses,                                            National Institute of Standards and Technology (NIST)
                                                             guidance.
• implement system security plans for five major
  applications,                                              NITC had improved controls to protect against
                                                             unauthorized access to its systems, but additional
• improve its monitoring of system accesses in               actions were needed to ensure resource security. These
  selected applications (including the payroll/personnel     included removing separated employees’ remote
  systems, the Foundation Financial Information              access accounts, documenting users with special
  System (FFIS) general ledger system, and an online         access privileges, documenting that security software
  database utility that allows overall access to OCFO/       access control settings were within an acceptable
  NFC applications), and                                     range, and completing the implementation of secure
                                                             access to the Internet. Finally, we noted that NITC was
• improve controls over changes made to its                  not always following its written policies for identifying,
  applications.                                              selecting, installing, and modifying system software, for
                                                             both routine and emergency changes. For example, no
Senior program management needs to continue its              audit trail supported the approval and testing of system
involvement in the planning and implementation of            modifications.
overall system security. OCFO/NFC’s ability to
accomplish its mission could be jeopardized if it does       We recommended that NITC establish a time-phased
not properly manage and secure its IT infrastructure.        plan for ensuring that the requirements outlined in OMB
                                                             Circular A-130 are met and that access controls
Many of the internal control weaknesses contained in         conform to OMB, NIST, and departmental requirements.
this report have been reported previously, and OCFO/         We also recommended that NITC strengthen its access
NFC is implementing corrective action plans on our prior     controls, and establish stronger change control
recommendations. Our new recommendations                     procedures that require documented authorizations and
addressed the need to ensure that a current network          testing before changes are implemented. The agency
map and IP address list are maintained, and to improve       generally agreed with our recommendations and has
access controls.                                             developed a corrective action plan.




                                                                                                                       5
NRCS Employee Sentenced for Possession of Child
Pornography

In Montana, a former Natural Resources Conservation
Service (NRCS) soil conservationist was sentenced to
12 months of home detention with electronic monitoring,
followed by 5 years of probation, after pleading guilty to
possession of child pornography. Our investigation
disclosed that the employee used his Government
computer to access sexually explicit materials, including
child pornography. A search warrant was executed by
OIG at the employee’s residence, where several
computers were seized. During the execution of the
warrant, the employee made incriminating statements
and admitted he had downloaded child pornography.
Forensic examination of the seized computers by OIG’s
computer forensic unit found that the employee had
accessed numerous pornographic Web sites using his
Government computer while on official duty, as well as
accessing pornographic Web sites on his home
computer. The employee was terminated from his
employment with NRCS.




6
Food Safety


                                                            OIG recommended that FSIS take the appropriate
 PROTECTING THE FOOD SUPPLY
                                                            actions on the questionable 823,632 pounds of product
                                                            (any product found to be ineligible should be destroyed
FSIS Needs To Continue To Enhance Controls Over             or shipped out of the United States). The agency also
Import Inspections                                          needs to implement controls to ensure that the eligibility
                                                            of foreign establishments is accurately recorded in its
In June 2000, we reported on Phase I of our audits of       information system. Concerning our prior report, FSIS
the Food Safety and Inspection Service (FSIS) imported      should develop a plan to implement the
meat and poultry inspection process, focusing on FSIS’s     recommendations to correct deficiencies in the import
equivalency determinations of foreign country inspection    reinspection program. FSIS generally agreed and is
systems. Phase II focused on FSIS’s reinspection of         continuing its efforts to enhance import operations by
imported meat and poultry products in 2000 and 2001,        strengthening policies and controls, addressing
and followed up on recommendations in the June 2000         resource issues, enhancing import training for
report that addressed reinspections.                        inspection personnel, and making other system
                                                            improvements.
FSIS does not adequately ensure that foreign
establishments exporting meat and poultry products to       Because records concerning imported products entering
the United States are eligible to do so, a condition also   the United States before 2000 are no longer available,
cited in our Phase I report. More than 7.7 million pounds   the agency was unable to take meaningful action on
of product entered U.S. commerce from January 1999          602,698 of the questionable 823,632 pounds of product.
to March 2001 from 37 foreign establishments whose          For the remaining 220,934 pounds that entered
eligibility status as recorded in the information system    commerce since that time, FSIS provided
was contradicted by documents made available to us by       documentation that 66,299 pounds were ineligible to
FSIS. (The system had not been updated to fully reflect     enter the United States. For the other 154,635 pounds,
the documentation showing eligibility. It showed some       FSIS provided insufficient documentation to show that
as eligible when they were not, and others as not           they were eligible to enter the United States.
eligible when they were.) Due to FSIS’s lack of
oversight, the agency was unaware of this until our audit   We continue to work with FSIS to reach management
questioned the establishments’ eligibility. Some were       decisions on the report’s outstanding recommendations.
located in Argentina, Uruguay, the United Kingdom, and
Italy, four countries that had outbreaks of Foot and        Supermarket Employee Poisons Meat
Mouth Disease in 2001. FSIS’s evidence supported the
eligibility of all but 823,632 pounds.                      A Federal grand jury indicted a meat cutter at a
                                                            supermarket in Michigan on February 13, 2003,
Unclear lines of responsibility, lack of procedures, and    charging him with poisoning meat with an insecticide
lack of management oversight adversely affected             and poisoning meat to seriously injure a business. The
FSIS’s ability to correct past deficiencies and manage      charges stem from an investigation conducted by OIG,
eligibility data used in the reinspection process. FSIS     the FBI, and local health authorities after approximately
had made minimal progress toward establishing an            130 consumers returned product or complained of
effective import reinspection process, even though the      sickness after eating ground beef purchased from the
agency agreed to do so in response to our June 2000         supermarket in early January 2003. Ninety-two people
audit report. FSIS did not implement the corrective         who consumed the contaminated hamburger reported
actions the agency reported to the Office of the Chief      acute symptoms including burning in the mouth and lips,
Financial Officer for final action for 11 of 18             lightheadedness, dizziness, nausea, and vomiting.
recommendations from our prior report. In addition,         Preliminary lab results indicated the contaminant to be
FSIS’s management information system contained              nicotine, and meat tampering was suspected. Further
inaccuracies about the eligibility status of foreign        investigation disclosed that the meat cutter
establishments that export product to the United States,    contaminated approximately 250 pounds of ground beef
which raised concerns about the safety of imported          with Black Leaf 40, a pesticide containing nicotine,
products.                                                   because of ongoing disagreements with co-workers in




                                                                                                                     7
the meat department at the store. He said he had hoped
that his action would result in his co-workers being
disciplined or fired.

Meat Company Officials Sentenced in False
Labeling Scheme

In a case previously reported, the president and
comptroller of a wholesale meat company have been
sentenced for their roles in a scheme involving false
inventory claims made to secure a $12 million line of
credit. Our joint investigation with the FBI and FSIS
compliance staff found that more than 480,000 pounds
of beef trimmings, fat, and other by-products were
relabeled to create the impression that the boxes
contained premium-valued meat. The president was
sentenced to 30 months in prison followed by 3 years of
supervised release. He was also ordered to pay
restitution of $4.2 million and a $5,000 fine. The
comptroller was sentenced to 5 years of probation,
$6,000 in restitution, and 200 hours of community
service. Two other company employees and the former
owner of another federally inspected meat-processing
facility pled guilty in Federal court to charges of
tampering with consumer products through the
relabeling scheme. All were sentenced to 3 years of
probation and ordered to pay restitution ranging from
$3,600 to $14,400, plus fines of between $500 and
$2,500 each.




8
Public Corruption


A continuing priority for OIG is the investigation of          million in restitution based on property damage claims
alleged criminal acts by USDA employees involving              that have already been filed, and the judge ordered a
USDA programs and operations. The percentage of                90-day deadline for restitution claims to be filed. An
wrongdoers is small, but to maintain the public trust,         appeal is pending which could affect the sentencing.
those who commit crimes must be brought to justice.
During the past 6 months, public corruption                    Contractor and FSA Employees Conspire To
investigations resulted in 11 convictions of current or        Defraud USDA of $429,000
former USDA employees and 24 personnel actions.
Descriptions of some recent investigations follow.             Our investigation of three Farm Service Agency (FSA)
                                                               employees and a contractor revealed that, from 1999
Forestry Technician Imprisoned for Setting                     through mid-2001, the group stole USDA furniture from
Colorado Wildfire                                              a warehouse in Chantilly, Virginia, and sold it to private
                                                               parties. The employees and contractor conspired to
As a followup to a matter reported previously, an FS           generate fraudulent payments from NFC to two fictitious
forestry technician was sentenced in Colorado State            companies created for the sole purpose of defrauding
Court to 12 years in prison, to run concurrently with the      USDA. The employees also wrote fraudulent credit card
6-year sentence she received in U.S. District Court for        convenience checks to the fictitious companies in return
setting the Hayman Fire, the largest forest fire in            for “kickbacks” from the contractor. The total amount of
Colorado history. The Hayman Fire burned more than             fraud involved was $429,000. One employee committed
137,000 acres—about 2 percent of the entire State of           suicide after OIG searched his residence. The other two
Colorado. It caused more than $23 million in timber            employees and the contractor have pled guilty in
losses to FS, as well as more than $29 million in losses       Federal court to conspiracy charges. One employee has
to the State of Colorado and to private individuals,           been sentenced to 21 months in prison and $214,000 in
including 133 homes, 1 commercial property, 466                restitution. The other employee was sentenced to 5
outbuildings, agricultural land, utility services, vehicles,   years of probation and $17,000 in restitution. Both have
and animals. The District Attorney has asked for $29.9         resigned. The contractor was sentenced to 6 months in
                                                               prison and $429,000 in restitution.




                                                                                                                        9
Feeding Programs


                                                                 work opportunity because a workfare contract was not
 FOOD STAMP PROGRAM (FSP)
                                                                 in place at the time the E&T efforts were initiated. FNS
                                                                 would allow just over $614,000 of the $3.5 million
Tennessee Improperly Managed the Food Stamp                      questioned by OIG. OIG and FNS will pursue this issue
E&T Program                                                      with USDA’s Office of the General Counsel (OGC).

The Welfare Reform Act of 1996 limited the participation         New Mexico State Agency Incurred Unauthorized
of able-bodied adults without dependents (ABAWD) in              Expenses for IT Project
FSP to no more than 3 out of every 36 months. Each
State must implement an employment and training                  The New Mexico State Agency responsible for FSP did
(E&T) program to ensure that ABAWDs are involved in              not follow established FNS and USDA procedures,
activities that eventually will lead to paid employment          including Federal procurement guidelines, to fund a new
and decreased dependency on assistance programs.                 computer system to administer FSP and other Federal
To assist States with their E&T efforts, FNS provides            assistance programs. Despite repeated warnings from
Federal grants that have no matching funds. Our audits           FNS, the State agency continued to incur costs without
done in prior years of the E&T program in Wisconsin,             the required approval from FNS. We began our audit in
Ohio, and Georgia found that State agencies did not              March 2002 and found that, as of June 2002, the State
always ensure that costs were allowable and properly             agency incurred unauthorized expenses of over
allocable to FSP.                                                $17 million, of which over $8 million was allocable
                                                                 to FSP.
Our review of Tennessee’s compliance with E&T
requirements disclosed significant fiscal and program            FNS concurred with our recommendations to determine
management issues. In FY 2000, Tennessee claimed                 unauthorized project costs and to disallow any claim for
reimbursement for program expenses in excess of the              reimbursement of these costs. FNS has disallowed all
actual costs of operating the program, and did not               noncontractor costs incurred for the project prior to
maintain adequate documentation to support costs. In             receipt of the official approval document. In addition,
addition, the State overreported the number of ABAWDs            FNS has disallowed all contractor costs obtained
served in FY 1999 by improperly claiming over 76,000             without prior FNS approval.
“call-in letters” as job-related activities when, in fact, the
letters only established appointments. Internal reports          Stronger Controls Over Access to FSP Participants’
showed that only 5,575 job-related assessments were              SSNs Needed
performed for ABAWDs. These practices resulted in
excessive costs of $3.15 million claimed for a 2-year            This audit was based on a U.S. General Accounting
period.                                                          Office (GAO) study to determine whether and to what
                                                                 extent Federal, State, and local government agencies
Tennessee also had not developed workfare contracts              use individuals’ Social Security numbers (SSN) and
or agreements to ensure that every ABAWD had a bona              whether they safeguard records and documents
fide work opportunity and a means of maintaining food            containing SSNs. The audit was performed in
stamp benefits. Instead, the State focused on job                conjunction with the President’s Council on Integrity and
search activities that cost the State less and required          Efficiency. Generally, FNS’s controls over access,
less staff involvement than workfare, training, and              disclosure, and use of SSNs were adequate and
educational activities. For FY 2000, the State claimed           functioning. However, we found several instances at the
that job search activity was tied to workfare and                county level where weaknesses in controls over
reported 23,234 offered and 3,677 filled workfare                computer access and physical access left SSNs
positions, but only 57 ABAWDs were actually placed in            susceptible to theft and unauthorized use. FNS agreed
workfare.                                                        with our recommendations to issue guidance to ensure
                                                                 that access to confidential information in FSP databases
We made recommendations to recover the excessive                 is appropriate to the users’ duties and to follow through
claims paid to the State and to improve the State’s fiscal       with the State offices to ensure that county offices
and administrative controls. While FNS agreed with a             comply with State security requirements over SSNs
number of our recommendations, it disagreed with our             used in FSP.
assessment that ABAWDs did not have a creditable

10
Multimillion-Dollar Food Stamp Cases Yield Assets,                            • The owner of a grocery store in Brooklyn, New York,
Restitution, Prison Time                                                        was sentenced to 18 months in prison, followed by 3
                                                                                years of probation, and ordered to pay more than
• During a 3-year investigation in Philadelphia,                                $1.5 million in restitution to USDA following her guilty
  Pennsylvania, OIG agents uncovered an elaborate                               plea to charges of food stamp trafficking and tax
  scheme involving over $2.6 million of food stamp                              evasion. The investigation disclosed that the owner
  trafficking and money laundering. An owner of two                             used her bank account to launder food stamps that
  bogus grocery stores hired individuals to purchase                            were illegally obtained by an unauthorized
  food stamps for cash from local recipients. The                               wholesaler.
  bogus grocery stores were open for only a few
  months and then closed their doors to avoid                                 • Two more sentences have been handed down in a
  detection. The storeowner continued to redeem                                 previously reported Cleveland, Ohio, case involving
  trafficked food stamps illegally through the two closed                       an estimated $15 million in food stamp and WIC
  grocery stores from 1994 through 1998. The                                    fraud since 1995. A third participant in this scheme
  storeowner and four co-conspirators were indicted on                          has been sentenced to 41 months of imprisonment,
  Federal charges. The storeowner is cooperating with                           and a fourth individual, who had been a fugitive, was
  Federal authorities and has agreed to forfeit to the                          recently sentenced to 18 months of imprisonment.
  Government three structures, including an apartment
  complex, altogether valued at about $450,000, which
  were purchased with the food stamp proceeds.
  Sentencing and additional legal proceedings are
  pending.




This store was part of a multimillion-dollar food stamp trafficking scheme. OIG photo.



                                                                                                                                      11
Rural Development


                                                                  We determined that RD inappropriately issued waivers
 RURAL BUSINESS-COOPERATIVE SERVICE
                                                                  eliminating 18 regulatory and administrative
 (RBS)
                                                                  requirements to finalize the issuance of loan guarantees
                                                                  to 467 sugar beet farmers. RD did not require the
Lender Deficient in Responsibility for Making and                 completion of a feasibility study despite serious
Servicing Guaranteed B&I Loan                                     concerns within RD and the Department about the
                                                                  financial health of the cooperative and the sugar
RBS faces a loss of almost $3.8 million because a                 industry. Rather, RD officials relied solely on the
lender did not fulfill its responsibility to ensure that          lender’s certification. Furthermore, RD officials granted
critical conditions for receipt of the RBS guarantees for         other exceptions that allowed the lender to bypass
a Business and Industry (B&I) loan were met. An OIG               important aspects of the due diligence process,
audit found that the lender did not obtain sufficient             including the proper assessment of the borrowers’
security to cover the loan losses and did not account for         financial history, profit projections, and current equity.
all security at the time of liquidation.
                                                                  This was part of a set of loans for almost $10.3 million
The borrower received a $5 million loan to construct a            issued under the Cooperative Stock Purchase Program.
high-speed sawmill. Rural Development (RD) issued an              The misuse of waiver authority has been a recurring
80-percent guarantee to the lender. However, the lender           problem with RBS’s B&I Guaranteed Loan Program. We
did not fulfill its responsibilities to ensure the facility was   issued a report in January 2001 that also disclosed
properly designed and built so it could produce the               abuse of exception authority. As a result of that audit,
quality and quantity of lumber the application indicated          RD included corrective actions in its instructions.
would be needed to generate sufficient revenue,                   However, these instructions were waived in order to
including repayment of the loan. In addition, the lender          approve these loan guarantees.
used a defective appraisal that overvalued the loan
collateral, resulting in the loan not being adequately            RD officials concurred with our recommendations to
secured. During the liquidation of the loan collateral, the       refrain from improperly using exception authority
lender did not account for over $610,000 of assets. The           requirements in the future, and to develop procedures
lender also improperly applied $75,000 of loan funds to           for the Cooperative Stock Purchase Program.
an unguaranteed loan it had made to the borrower.
                                                                  Jail Time in Two Multimillion-Dollar B&I Loan
We made a series of recommendations for corrective                Catfish Schemes
actions. Key among those recommendations was that
RBS recover the almost $3.8 million loss from the                 • A Texas businessman, who acted as a paid
lender. In its response to the draft report, RD agreed              consultant for both the buyer and seller of a
with the report’s recommendations or proposed                       Mississippi catfish farm, was sentenced in Federal
alternative solutions.                                              District Court for the Northern District of Mississippi
                                                                    to 20 months in prison and 3 years of supervised
Exception Authority and Credit Quality Procedures                   release, and ordered to pay restitution of $5,899,055.
Inappropriately Waived for 467 B&I Guaranteed                       The businessman conspired with an appraiser and
Loans                                                               others to falsely inflate the number and value of the
                                                                    live fish inventory that was security for a $9.5 million
In response to RD’s request and a whistleblower                     loan. Ninety percent of the loan note was guaranteed
complaint, we reviewed the procedures used to process               through the B&I Guaranteed Loan Program. The
a loan involving the Cooperative Stock Purchase                     Mississippi appraiser was also sentenced to
Program. Although authorized in the 1996 Farm Bill,                 6 months of home confinement, 50 hours of
specific procedures have not been implemented for the               community service, and a $10,000 fine for his role in
program. RD used the B&I Program regulations to                     the conspiracy.
process these guarantees. While this approach worked
in the past for smaller cooperatives, it did not work well
in this instance because of the large number of
guarantees (467).



12
• A Swainsboro, Georgia, businessman and an
  equipment broker were sentenced in Federal District
  Court to serve Federal prison terms of 60 months
  and 32 months, respectively, for their roles in a
  fraudulent scheme to obtain a $5 million B&I loan for
  building and equipping a catfish processing plant in a
  rural Georgia community. Both submitted false
  affidavits to the lender certifying that approximately
  $3 million had been transferred into the business
  account of the broker to purchase catfish processing
  equipment when, in fact, no money had been
  transferred and no equipment had been purchased.
  As a result of the scheme, RBS guaranteed the
  fraudulently obtained loan. The businessman also
  pled guilty to his role in a second fraudulent scheme,
  which he used to obtain more than $6 million from a
  government agency in the Kingdom of Swaziland.
  The businessman was ordered to pay restitution of
  over $11 million for his role in both of the fraudulent
  schemes.




                                                            13
Federal Crop Insurance


 RISK MANAGEMENT AGENCY (RMA)


North Dakota Jury Orders $5.9 Million in Criminal
Forfeiture

On November 27, 2002, a Federal jury ordered a
prominent North Dakota farmer and insurance broker to
forfeit $5.9 million to the Government after he and his
farm business entities were found guilty at trial of 19
criminal charges, including money laundering,
conspiracy to defraud Federal agencies, false
statements, and filing false tax returns in connection
with farm and crop insurance programs that are
administered by FSA and RMA. From 1988 through
2000, the farmer and his business entities fraudulently
received millions of dollars in crop insurance and
Federal farm program payments by submitting false and
misleading information. Proceeds from the scheme
were used to pay expenses and loans, as well as to
provide gifts to co-conspirators, to promote the scheme
and conceal the true nature and ownership of the
proceeds. Sentencing is scheduled for June 4, 2003.
This case was worked jointly with the IRS.

Elevator Manager Found Guilty of $1.1 Million
Conspiracy To Defraud USDA

On February 19, 2003, a Minnesota grain elevator
manager was found guilty of conspiracy to defraud RMA
and FSA out of approximately $1.1 million in insurance
benefits and disaster payments. The conviction was the
result of an 8-day jury trial in the Federal District of
Minnesota. In 1999, the manager provided numerous
North Dakota producers with fraudulent scale tickets
and assembly sheets for durum wheat that reflected
damage in excess of 35 percent. The producers
received a quality adjustment based on the fraudulent
scale tickets under the RMA Crop Revenue Coverage
program that reduced their overall production and
enabled them to collect approximately $1.1 million in
undeserved insurance and disaster payments. To date,
four of the involved producers have pled guilty to
submitting false statements. Sentencing is pending the
completion of a presentence report.




14
Program Irregularities and Abuses


                                                             From February 1, 2000, through November 30, 2001,
 NATURAL RESOURCES CONSERVATION
                                                             FAMU charged more than $930,000 to the agreement,
 SERVICE (NRCS)
                                                             of which over $560,000 went to ineligible and
                                                             unsupported costs as a result of inadequate
EQIP Cost Share Practice Approvals and                       administrative control procedures. We questioned
Specifications in Nebraska                                   charges for personnel and equipment costs associated
                                                             with ineligible research projects, instructors’ salaries
We reviewed an Environmental Quality Incentive               that did not increase FAMU’s teaching capacity,
Program (EQIP) cost share practice at one field office in    prohibited and erroneous administrative costs, and
Nebraska to assess the merits of a complaint alleging        equipment purchases not approved by ARS.
that an NRCS employee approved a practice for cost
shares even though the practice did not meet NRCS            FAMU had never worked with ARS to develop a
specifications. The EQIP practice did not meet design        strategic plan and an implementation plan. FAMU had
specifications; however, the practice was constructed in     allocated no funding to the primary objective, the Ph.D.
a manner that was functional, met NRCS technical             programs. As a result, ARS could not determine that
standards, and was approved by an NRCS civil                 FAMU’s level of effort toward accomplishing the
engineer who had proper approval authority for the           agreement’s objective was commensurate with funding.
practice. We also found that the contractor, not the
program participant, requested and received a review of      Based on our audit, we made a series of
the preliminary technical determination, which gave an       recommendations for FAMU to improve its
appearance that the contractor received favorable            administrative controls over the program and
treatment. In addition, we found that one field and one      recommended that ARS (1) recover, disallow, and/or
district office did not always complete status and quality   evaluate post justifications, as appropriate, for the
reviews and did not always identify practices that were      questioned expenses; and (2) work with FAMU to
not completed as planned.                                    develop a formal plan for implementing the agreement’s
                                                             objectives. ARS is working with OGC to resolve these
We recommended that the NRCS State office determine          issues with FAMU.
whether its operations have been conducted according
to procedure. We also recommended that officials
                                                              ANIMAL AND PLANT HEALTH INSPECTION
remind staff that reviews of technical determinations
                                                              SERVICE
may be requested only by the program participants, and
that staff must coordinate with the national office on
approval authorities needed for reviews. The State           Illegal Bronx Cockfighting Ring Raided
office took action to implement our recommendations.
                                                             On January 18, 2003, special agents from OIG’s New
                                                             York office and law enforcement officers from the New
 AGRICULTURAL RESEARCH SERVICE (ARS)
                                                             York City Police Department and the American Society
                                                             for the Prevention of Cruelty to Animals jointly raided a
Costs of Agreement for Establishment of Science              cockfighting operation in progress in the Bronx, New
Center Questioned                                            York. Approximately 137 people were either arrested or
                                                             summoned, and a vehicle and $40,000 were seized.
ARS requested that we review a Specific Cooperative          Officers confiscated 38 roosters to be tested for exotic
Agreement it had entered into with Florida Agricultural      diseases.
and Mechanical University (FAMU) to provide funding to
establish a Science Center at the university. The
primary purpose of the center is to develop doctor of
philosophy (Ph.D.) graduates in biology and chemistry
so they may pursue careers in agricultural research.
Funding for this long-term effort is anticipated to be
about $875,000 annually.




                                                                                                                    15
Financial Management and Accountability


For the first time since Congress passed the Chief           • Significant improvements were made by USDA’s
Financial Officers Act of 1990 and the Government              agencies in correcting longstanding real and personal
Management Reform Act of 1994, the Department                  property accounting deficiencies. Additional
received an unqualified audit opinion on its FY 2002           improvement is needed by FS.
financial statements. An unqualified opinion means the
financial statements fairly present an entity’s financial    In addition, other major initiatives are planned to (1)
position. In FY 2001, and in prior fiscal years, we issued   renovate corporate administrative systems, (2) design
a disclaimer of opinion due to weaknesses in the             departmentwide cost accounting standards, (3) improve
Department’s and some of the standalone agencies’            the processes and procedures for accounting for real
financial systems and the Department’s inability to          and personal property, and (4) enhance overall
provide auditable financial statements within timeframes     management accountability and control.
established by OMB.
                                                             In our Report on the Internal Control Structure, we
The achievement of an unqualified opinion is a major         reported on USDA’s financial system of records, which
accomplishment reflecting the Secretary’s leadership         OIG and GAO have characterized as high risk. OCFO
and the commitment and hard work of the Chief                has taken action to address the longstanding and
Financial Officers of the Department and all its             material problems to strengthen the system, which
agencies. There is still work to be done, however,           processes transactions for, and generates reports of,
because that achievement did not entirely result from        more than $123 billion in assets and $72 billion in
improvements in underlying financial management              program costs. We also noted that improvements are
systems. Enhancements and improvements to USDA’s             needed in the Department’s IT security. Many of our
financial systems are needed so that Department              recommendations remain outstanding from prior
managers have access to timely financial information to      periods, but we added recommendations this fiscal
allow them to make better management decisions. The          year, such as the need to ensure quality control reviews
Department recognizes this continuing need, and the          over the financial statement preparation process.
Secretary, in the news release announcing the
unqualified opinion, has emphasized that USDA will           FS—Unqualified Opinion (First Ever)
continue its work to improve financial management
accountability in the Department.                            FS received an unqualified opinion on its financial
                                                             statements for the first time ever. However, the
                                                             independent auditor’s report noted that improved
 FINANCIAL STATEMENT AUDITS FOR
                                                             controls are needed over the following: the
 FY 2002
                                                             reconciliation and accountability of FBWT (an
                                                             adjustment of over $100 million was needed to bring the
USDA’s Consolidated Financial Statements Achieve             agency’s general ledger into agreement with Treasury’s
First-Ever Unqualified Opinion                               records), the recording of property transactions,
                                                             selected automated programs, payroll processing, and
The Department achieved the following major                  yearend accruals. The agency also failed to comply with
accomplishments in improving its overall financial           the Federal Financial Management Improvement Act
management during FY 2002:                                   (FFMIA). The unqualified opinion largely was due to a
                                                             2-year effort by OCFO, the agency, OIG, and the
• OCFO/NFC made significant progress in performing           independent accounting firm that performed the audit,
  Fund Balance with Treasury (FBWT) reconciliations          rather than improvements in the underlying financial
  for its serviced agencies, increasing the reliability of   management systems. Ending FY 2002 financial
  the FBWT line item. However, further work is needed        statement balances, though fairly presented, resulted
  to ensure FBWT is reconciled as of fiscal yearend.         from audit projections and not agency-generated data.
                                                             The auditors, for example, recommended that the
• As of FY 2003, all USDA agencies have been                 agency adjust its beginning property balances by nearly
  converted to FFIS, mitigating the financial                $1 billion.
  management problems reported in the legacy Central
  Accounting System.



16
The report recommended that FS fully document the           • implement an automated, integrated system to track
process for reconciling its records with FBWT and             the status of certain obligations and administrative
develop service-level agreements with NFC. The                limitations,
service agreements should include specific
responsibilities, roles, clearing timelines, and            • establish financial accounting and reporting policies
procedures for resolution of noncompliance with               and procedures to preclude the continued need to
agreement terms. Additionally, FS should analyze and          make numerous material adjustments to the
resolve amounts in budget clearing accounts. For              consolidated financial statements after the general
property transactions, the report recommended that FS         ledger was closed, and
train personnel to accurately record transactions and
require supervisory approval that verifies the initial      • develop procedures to ensure accurate, complete,
recording of asset acquisition cost, in-service date, and     and timely budgetary accounting entries and
the proper useful life. FS concurred with the audit           accuracy in the yearend status of budgetary
findings and recommendations.                                 resources.

Rural Telephone Bank (RTB)—Unqualified Opinion              Rural Development (RD)—Unqualified Opinion

RTB again received an unqualified opinion on its            RD again received an unqualified opinion on its financial
financial statements. A material internal control           statements. Our report discusses three material internal
weakness was found with IT controls. RTB’s financial        control weaknesses and a matter of noncompliance with
management system is not in substantial compliance          laws and regulations. The following highlights the
with applicable Federal financial management system         significant issues presented:
requirements, and accordingly, RTB does not comply
with FFMIA. RTB agreed with our findings.                   • RD’s initial draft financial statements were not always
                                                              adequately supported and contained some errors
Federal Crop Insurance Corporation (FCIC)/RMA—                requiring material adjustments.
Unqualified Opinion
                                                            • Due to weaknesses in IT controls, RD was highly
FCIC/RMA again received an unqualified opinion on its         vulnerable to intrusion, and its computer system,
financial statements. However, the report recommended         data, and programs were at risk for misuse.
that FCIC/RMA improve its policies and procedures
over its FBWT reconciliation, oversight of reinsured        • Internal reviews were not always being performed in
organizations, financial reporting process, and               a timely manner.
compliance with applicable laws and regulations. The
agency agreed to take corrective action. We are             • Initial Multi-Family Housing credit reform reestimates
working with the agency to reach management decision.         were inaccurate, requiring material adjustments.

CCC—Unqualified Opinion                                     • In our report on compliance, we noted that RD’s
                                                              Rural Utilities Service legacy systems are not in
The Commodity Credit Corporation (CCC) also received          compliance with OMB Circular A-127, and not all
an unqualified opinion on its financial statements. The       financial management systems have been certified in
independent accounting firm that performed the audit          accordance with OMB Circular A-130.
noted several material internal control weaknesses.
CCC needs to                                                We recommended that RD (1) improve its financial
                                                            statement compilation procedures, including quality
• strengthen information security controls affecting the    control reviews, and (2) conduct timely Financial
  FSA/CCC financial systems environment,                    Management Division reviews. RD officials generally
                                                            agreed with the issues and recommendations.
• achieve compliance with FFMIA requirements and
  OMB Circular A-127 (Financial Management
  Systems) policy guidance,


                                                                                                                  17
 DEPARTMENTAL ADMINISTRATION


Planning and Reporting on USDA’s Energy
Conservation Management Efforts Need
Improvement

OIG found that the Department needs to improve its
management of energy use. Agency actions to address
conservation requirements were limited, and the
Departmental Administration’s Office of Procurement
and Property Management (OPPM), the coordinating
organization, needed to strengthen its monitoring and
reporting on the Department’s energy efficiency
improvement efforts.

The Annual Energy Implementation Plan and the
Annual Report on Energy Management Activities met
the Department of Energy’s reporting requirements, but
they were insufficient in providing consistently
meaningful and accurate data. Some information in the
annual report was unsupported, incorrect, and/or
incomplete. Support for USDA’s expenditures for energy
efficiency improvements was unavailable, in part,
because these expenditures did not appear as a
separate line item in the Department’s budget.

We recommended that OPPM identify goals and, if the
goals are not achieved, that the Department explain
why not and formulate a remediation plan. The
implementation plans and energy reports should contain
information that meets USDA’s needs, as well as the
required content. We also recommended the
Department issue a departmental regulation assigning
OPPM responsibility for the complete and accurate
preparation of the annual report, incorporating sufficient
management controls, while requiring timely and
accurate supporting information from USDA agencies.
We further recommended that the Department establish
and fund a separate budget line item for energy
efficiency improvements.

OPPM agreed to take steps to strengthen the program
but did not agree to assume a proactive role in the
control process. We are working with agency officials to
achieve management decision.




18
    Summary of Audit Activities
Reports Issued .................................................................................................................................................         31
  Audits Performed by OIG ....................................................................................                28
  Evaluations Performed by OIG ...........................................................................                      0
  Audits Performed Under the Single Audit Act .....................................................                             0
  Audits Performed by Others ................................................................................                   3

Management Decisions Made
Number of Reports ............................................................................................................................................           26
Number of Recommendations ..........................................................................................................................                    168

Total Dollar Impact (Millions) .......................................................................................................................... $32.9
  Questioned/Unsupported Costs .......................................................................................... $2.9a,b
  Recommended for Recovery ..............................................................................           $2.3
  Not Recommended for Recovery ........................................................................             $0.6
  Funds To Be Put to Better Use ............................................................................................ $30.0

a   These were the amounts the auditees agreed to at the time of management decision.
b   The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.


    Summary of Investigative Activities
Reports Issued ...................................................................................................................................................      193
Cases Opened ...................................................................................................................................................        226
Cases Closed .....................................................................................................................................................      203
Cases Referred for Prosecution .........................................................................................................................                186

Impact of Investigations
  Indictments ....................................................................................................................................................      247
  Convictions ....................................................................................................................................................      212a
  Searches ........................................................................................................................................................      46
  Arrests ...........................................................................................................................................................   687

Total Dollar Impact (Millions) .......................................................................................................................... $44.4
Recoveries/Collections ............................................................................................................ $16.1b
 Restitutions ............................................................................................................................. $27.3c
 Fines ....................................................................................................................................... $ 0.1d
 Claims Established .................................................................................................................. $ 0.7e
 Cost Avoidance ....................................................................................................................... $ 0.2f

Administrative Sanctions
  Employees .....................................................................................................................................................        24
  Businesses/Persons ......................................................................................................................................             258

a   Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore,
    the 212 convictions do not necessarily relate to the 247 indictments.
b
    Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
    Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
    Fines are court-ordered penalties.
e
    Claims established are agency demands for repayment of USDA benefits.
f   Consists of loans or benefits not granted as the result of an OIG investigation.




                                                                                                                                                                               19
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal, or
investigative proceedings that must be completed before the agency can act to complete management decisions.


 New Since Last Reporting Period


                                                                                                          Amount With
                                                                                    Total Value             No Mgmt.
                                                                                    at Issuance             Decision
Agency             Date Issued                        Title of Report               (in dollars)           (in dollars)

APHIS                 08/08/02                     1. APHIS Citrus Canker            1,699,472              1,699,472
                                                      Monitoring Efforts –
                                                      South Florida (33099-2-At)

CSREES                08/06/02                     2. Grants to NCRI                 1,246,161              1,246,161
                                                      (13099-2-Te)

FNS                   04/23/02                     3. Analysis of Large CACFP                 0                        0
                                                      Sponsors (27010-7-KC)

                      07/03/02                     4. FSP – Administrative           9,096,855              8,511,670
                                                      Costs in California
                                                      (27099-18-SF)

                      09/30/02                     5. NSLP Operations in New         1,088,403              1,088,403
                                                      York City (27010-28-Hy)

FS                    07/17/02                     6. OMNI Development               2,049,653              2,049,653
                                                      Corporation – Contract
                                                      (08017-11-KC)

FSA                   09/30/02                     7. Assessments on Imported        4,583,797              4,583,797
                                                      Tobacco (03099-164-At)

FSIS                  09/30/02                     8. Overtime Controls (24099-4-At)          0                        0

Multiagency           09/09/02                     9. Management of USDA        1,813,809                   1,813,809
                                                      Hazardous Waste
                                                      Management Funds (50801-12-At)

                      09/10/02                    10. FY 2002 USDA GISRA                      0                        0
                                                      Report (50099-50-FM)

RBS                   09/27/02                    11. B&I Direct Loan Program –        472,202                         0
                                                      Arkansas (34601-14-Te)




20
                                                                                                        Amount With
                                                                                    Total Value           No Mgmt.
                                                                                    at Issuance           Decision
Agency             Date Issued                       Title of Report                (in dollars)         (in dollars)

RD                   08/05/02                    12. Security of IT Resources –               0                    0
                                                     RD (85099-2-FM)

RHS                  08/08/02                    13. RRH Program                    15,693,699              193,699
                                                     Servicing of Insurance
                                                     Expenses (04601-5-KC)

RMA                  09/30/02                    14. Viability of 1999 Fall         21,100,000          21,100,000
                                                     Watermelon Crop
                                                     Insurance in Texas
                                                     (05601-8-Te)

                     09/30/02                    15. Review of Large Insurance       6,998,779            6,998,779
                                                     Claim for Watermelons
                                                     (05601-9-Te)


 Previously Reported but Not Yet Resolved


These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but,
for various reasons, the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.

CCC                  02/26/02                    16. FY 2001 CCC Financial                    0                    0
                                                     Statements (06401-4-KC)

Office of            09/30/98                    17. Evaluation of CR Efforts To Reduce       0                    0
Civil Rights                                         Complaints Backlog (60801-1-Hq)
(CR)
                     03/24/99                    18. Evaluation of CR Management              0                    0
                                                     of Settlement Agreements
                                                     (60801-2-Hq)

                     03/10/00                    19. Office of CR Management of               0                    0
                                                     Employment Complaints
                                                     (60801-3-Hq)

                     03/10/00                    20. Status of Implementation of              0                    0
                                                     Recommendations Made in
                                                     Prior Evaluations of Program
                                                     Complaints (60801-4-Hq)

CSREES               03/27/97                    21. Use of 4-H Program Funds –          5,633                     0
                                                     University of Illinois (13011-1-Ch)



                                                                                                                       21
                                                                       Amount With
                                                        Total Value      No Mgmt.
                                                        at Issuance      Decision
Agency   Date Issued      Title of Report               (in dollars)    (in dollars)

FNS        03/22/00    22. CACFP – National Initiative    319,279               0
                           To Identify Problem Sponsors -
                           Wildwood (27010-3-KC)

           05/11/01    23. NSLP – Food Service           3,572,137      3,572,137
                           Management Companies
                           (27601-12-KC)*

           09/10/01    24. NSLP – Food Service           3,537,912      3,198,926
                           Management Companies
                           (27601-24-Ch)*

           11/21/01    25. CACFP – Wildwood, Inc.,      36,895,611     36,895,611
                           Phase II (27010-6-KC)

           03/29/02    26. NSLP – Food Service             307,711       307,711
                           SMC Companies
                           Management Company
                           (27601-13-KC)*

FS         03/31/97    27. Research Cooperative and        468,547       468,547
                           Cost Reimbursable
                           Agreements (08601-18-SF)

           05/29/01    28. Northeastern Research         2,388,107              0
                           Station Accounting for
                           Timber Sales (08007-1-At)

           11/14/01    29. MATCOM – Contract Audit          66,899         66,899
                           (08017-10-KC)

FSA        09/28/95    30. Disaster Assistance           1,805,828      1,672,929
                           Payments,
                           Lauderdale, TN
                           (03006-4-At)

           03/30/99    31. Payment Limitation –            881,924       881,924
                           Mitchell County, GA
                           (03006-20-At)

           08/22/00    32. LeFlore County FSA              228,764       228,764
                           Office Disaster Programs
                           (03006-20-Te)*

           05/24/01    33. FSA Payment Limitations                0             0
                           Majority Stockholders of
                           Corporations (03099-27-Te)


22
                                                                            Amount With
                                                             Total Value      No Mgmt.
                                                             at Issuance      Decision
Agency        Date Issued      Title of Report               (in dollars)    (in dollars)

                07/30/01    34. 1999 Crop Disaster Program       950,891      950,891
                                (03099-42-KC)

FSIS            06/21/00    35. Implementation of the Hazard           0             0
                                Analysis and Critical Control
                                Point System (24001-3-At)

                06/21/00    36. Imported Meat and Poultry              0             0
                                Inspection Process (24099-3-Hy)

Multiagency     09/30/98    37. CSREES Managing Facilities 3,824,211            74,366
                                Construction Grants
                                (50601-5-At)

                03/31/99    38. Private Voluntary           18,629,558      18,501,064
                                Organization Accountability
                                (50801-6-At)

                09/28/00    39. Crop Loss Disaster           10,728,872       149,178
                                Assistance Program
                                (50801-3-KC)

                03/29/02    40. Controls Over Accidental               0             0
                                and Clandestine Release of
                                Biohazards (50099-13-At)

OCIO            03/30/01    41. Security Over USDA IT
                                Resources Needs Improvement            0             0
                                (50099-27-FM)

RBS             10/01/99    42. B&I Loan – Indiana               595,511      595,511
                                Farmers (34099-3-Ch)*

                09/12/01    43. Lender Servicing of B&I         2,365,060    2,365,060
                                Loan, State of Arizona,
                                Lender B (34601-4-SF)

                01/28/02    44. Lender Servicing of B&I         1,536,060    1,536,060
                                Guaranteed Loans –
                                Florida (34601-3-At)

RHS             01/08/99    45. RRH Program – Dujardin           195,694      195,694
                                Property Management, Inc.,
                                Everett, WA (04801-5-SF)*




                                                                                         23
                                                                       Amount With
                                                        Total Value      No Mgmt.
                                                        at Issuance      Decision
Agency   Date Issued       Title of Report              (in dollars)    (in dollars)

           04/20/99    46. RRH Program, Owner/             346,685       346,685
                           Manager, Olympia, WA
                           (04801-6-SF)*

           05/25/00    47. RRH Nationwide Initiative,     4,922,879     4,919,579
                           in Missouri, St. Louis, MO
                           (04801-2-KC)

           12/18/00    48. RRH Program Insurance           924,751       753,456
                           Expenses, Washington, DC
                           (04801-6-KC)

           09/28/01    49. RRH, Insurance Expense,         596,665       500,667
                           Phase II (04601-4-KC)

RMA        09/30/97    50. Crop Insurance on Fresh       15,082,744             0
                           Market Tomatoes
                           (05099-1-At)

           02/28/01    51. FY 2000 FCIC Financial                 0             0
                           Statements (05401-1-Hq)

           03/12/01    52. RMA/FCIC FY 2000
                           Financial Statements
                           Report on Management Issues            0             0
                           (05401-2-Hq)

           03/14/01    53. Crop Insurance for           2,254,014       2,254,014
                           Specialty Crops (05601-4-At)

           05/21/01    54. Review of Written              1,565,730     1,565,730
                           Agreements (05002-1-Te)

           08/17/01    55. RMA Watermelon Claims       1,506,620        1,506,620
                           in South Texas (05601-7-Te)

           03/15/02    56. Monitoring of RMA’s                    0             0
                           Implementation of Manual 14
                           Reviews/Quality Control
                           Review System
                           (05099-14-KC)




24
 Audits Without Management Decision - Narrative for New Entries




1. APHIS Citrus Canker Monitoring Effort – South               5. National School Lunch Program Operations in
   Florida (33099-2-At), Issued August 8, 2002                    New York City (27010-28-Hy), Issued
                                                                  September 30, 2002
The report had five recommendations, all of which are
still open. We are evaluating the APHIS followup review        FNS has not finalized management decisions because
report and additional information on the specific actions      the completion dates for corrective action have not been
to be taken by the Florida Department of Agriculture and       established by the State agency and school food
Consumer Services.                                             authority. Also, FNS is still reviewing documents relating
                                                               to recommended recoveries and, therefore, has not
2. Grants to National Center for Resources                     determined the final recovery amounts.
   Innovation (NCRI) (13099-2-Te), Issued
   August 6, 2002                                              6. OMNI Development Corporation – Contract
                                                                  (08017-11-KC), Issued July 17, 2002
NCRI received $7.4 million between 1990 and 1998 to
develop a geographic information system (GIS)                  The Department of Defense Contract Audit Agency
database and disseminate GIS technology to local               (DCAA) audited OMNI Development Corporation at our
communities. A subgrantee spent about $37,000 to               request to examine a $2,049,653 claim for alleged lost
lobby Congress and had no records to support the               rental income and present value of a building to
appropriate expenditure of about $1 million, because           determine if the claimed costs were acceptable as a
the NCRI board of directors did not adequately monitor         basis for settlement. The one open recommendation
the subgrantee. We recommended that the agency work            requires the contracting officer to coordinate with OGC
with OGC to determine whether criminal or civil actions        and use the conditions reported in negotiating the
should be brought against the subgrantee official for          payment to the contractor. The case is being processed
approving lobbying activities in violation of the law. Also,   by OGC, and a hearing is scheduled for Spring 2003.
we recommended the agency recover all unsupported              We issued a memorandum to FS on January 22, 2003,
fund expenditures. Agency officials are working with           requesting that it advise us of any decision on payment
NCRI’s board of directors to obtain sufficient information     to the contractor and provide periodic progress reports.
to reach management decision.
                                                               7. Assessments on Imported Tobacco (03099-164-
3. Analysis of Large CACFP Sponsors (27010-7-                     At), Issued September 30, 2002
   KC), Issued April 23, 2002
                                                               This audit follows up on our 1997 audit of the Tobacco
One of the five recommendations remains open. FNS              Importers Assessment Program, which showed FSA
needs to provide a corrective action plan to ensure            had inadequate controls to ensure collections of
sponsoring organizations comply with State agency              marketing penalties and late payment interest charges
policy and specific timeframes for implementation of           for untimely remittance of imported tobacco assessment
corrective actions.                                            fees for calendar years 1994 through 1996. The current
                                                               audit of 1997 through 2001 assessments showed FSA
4. FSP Administrative Costs in California (27099-              had not yet issued a directive to assess and collect
   18-SF), Issued July 3, 2002                                 marketing penalties and late payment interest charges.
                                                               About $952,811 in imported tobacco assessment fees
We have not reached management decision on one                 was not paid within prescribed timeframes, and claims
recommendation. FNS needs to provide support that              were not made by FSA against nine importers for about
expenditures California claimed in FY 2000 were                $4.6 million in potential marketing penalties and late
properly reassigned to prior fiscal years (if the funds are    payment interest charges for late remittance fees. FSA
available) or documentation that the State was billed for      agreed to issue a permanent directive, as discussed
the amounts.

                                                                                                                      25
above, and to assess the importers with liabilities of        11. B&I Direct Loan Program – Arkansas (34601-14-
about $4.6 million. We are working with FSA to obtain             Te), Issued, September 27, 2002
documentation of planned corrective actions.
                                                              OIG recommended that the servicing office obtain clear,
8. Overtime Controls (24099-4-At), Issued                     definite, and documented liens on all collateral securing
   September 30, 2002                                         its loans to borrowers. RBS must identify the chattel
                                                              property, including model and or/serial numbers of
We recommended that FSIS strengthen its procedures            equipment
for monitoring, reporting, and collecting for overtime
services. Four of the ten recommendations remain              12. Security of IT Resources – Rural Development
open. We need more detailed information on how                    (85099-2-FM), Issued August 5, 2002
controls will be implemented over the time and
attendance certification process, and an estimated            Management decisions have not been reached on nine
completion date of the investigation and administrative       recommendations. RD has provided two responses to
actions if warranted. In addition, we need to know what       the audit report; discussions concern various aspects of
enforcement actions will be implemented to ensure that        the IT Security process.
all forms have been signed by plant management and
how plant management can verify the accuracy of               13. Rural Rental Housing Program, Servicing of
overtime charges.                                                 Insurance Expenses (04601-5-KC), Issued
                                                                  August 8, 2002
9. Management of USDA Hazardous Waste
   Management Funds (50801-12-At), Issued                     OIG recommended that RHS recover unallowable costs
   September 9, 2002                                          billed to projects by their management companies for
                                                              workers’ compensation insurance, duplicate insurance,
We made seven recommendations to the Hazardous                and payroll taxes.
Materials Policy Council (HMPC) to strengthen its
monitoring system to ensure that agencies maintain            14. Viability of 1999 Fall Watermelon Crop
program fund accountability. We have not reached                  Insurance In Texas (05601-8-Te), Issued
management decision on two recommendations. One                   September 30, 2002
calls for the Department to assign technically qualified
staff to monitor program reviews and amend                    RMA approved coverage of fall watermelons in its 1999
procedures. The other is for CCC to complete a review         watermelon crop insurance pilot program despite
of its longstanding contract with a private laboratory that   evidence that this crop was not suitable to South Texas
provides environmental site assessment to ensure that         and was unlikely to produce a harvestable fruit. RMA
continued use of the contractor is in the best interest of    managers did not ensure that the development package
the Government.                                               for the pilot program was complete, accurate, and
                                                              specific as to the level of actuarial risk associated with
10. FY 2002 USDA Government Information Security              each crop. As a result, we questioned the entire value of
    Reform Act (50099-50-FM), Issued                          fall watermelon insurance claims in Texas for the 1999
    September 10, 2002                                        crop year, $21,100,000. We recommended that RMA
                                                              review the decisions made in approving the pilot
We await a response from the Office of the Chief              program and determine if any personnel actions should
Information Officer to the final audit report. Seven          be initiated. RMA agreed that the Administrator would
recommendations remain open pending agreement as              do so within 6 months.
to the appropriateness of, and timeframes for, the
planned corrective actions, which address various areas
in which the Department’s security over IT resources
needs to be improved to comply with the Government
Information Security Reform Act.




26
15. Review of Large Insurance Claim for
    Watermelons (05601-9-Te), Issued
    September 30, 2002

A large watermelon producer in Texas misrepresented
his share in a fall 1999 watermelon crop. The producer
entered into written cash leases and custom farming
agreements with 19 Hidalgo County landlords, based on
which the producer received 100 percent of over
$5.5 million in insurance proceeds when the fall
watermelon crops failed. However, the farming
arrangement, in reality, constituted a crop share lease,
making the producer ineligible for 100 percent of the
crop insurance indemnity. Also, the co-owner of the
insurance agency that sold the producer his watermelon
insurance had leased the producer 802.7 acres of his
farmland, which would constitute a potential conflict of
interest.

We recommended that RMA seek an OGC opinion to
determine if the producer misrepresented his share in
the insured watermelon crop. If so, the contract should
be considered void, and RMA should collect the
$6,998,779 that was paid to the producer for crop year
1999 losses. We also recommended that RMA
determine whether the co-owner of the insurance
agency and producer engaged in a conflict of interest. If
so, RMA should take appropriate action against the
producer, the insurance agent, the agent’s son, and the
insurance agency. RMA has requested the applicable
OGC opinions and is reviewing the insurance claim
documents and the business relationship with the
insurance agent. RMA has also issued a proposed rule
to enhance the conflict of interest definition.




                                                            27
 Indictments and Convictions

Between October 1, 2002, and March 31, 2003, OIG             Indictments and Convictions
completed 203 investigations. We referred 186 cases to       October 1, 2002 - March 31, 2003
Federal, State, and local prosecutors for their decision.

During the reporting period, our investigations led to       Agency            Indictments        Convictions*
247 indictments and 212 convictions. The period of time
to obtain court action on an indictment varies widely;       AMS                       0                    2
therefore, the 212 convictions do not necessarily relate     APHIS                    10                    4
to the 247 indictments. Fines, recoveries/collections,       ARS                       1                    2
restitutions, claims established, cost avoidance, and        FAS                       0                    1
administrative penalties resulting from our investigations   FNS                     173                  129
totaled about $44.4 million.                                 FS                        6                    3
                                                             FSA                      20                   47
The following is a breakdown, by agency, of indictments      FSIS                      6                    5
and convictions for the reporting period.                    GIPSA                     2                    0
                                                             NRCS                      2                    1
                                                             OCIO                      1                    1
                                                             OIG                       3                    2
                                                             RBS                       0                    5
                                                             RHS                      13                    5
                                                             RMA                      10                    5
                                                                                     ___                  ___
                                                             Totals                  247                  212

                                                             *
                                                                 This category includes pretrial diversions.




28
  Office of Inspector General Hotline

 The OIG Hotline serves as a national receiving point for
 reports from both employees and the general public of
 suspected incidents of fraud, waste, mismanagement,
 and abuse in USDA programs and operations. During
 this reporting period, the OIG Hotline received 994
 complaints, which included allegations of participant
 fraud, employee misconduct, and mismanagement, as
 well as opinions about USDA programs. Figure 1
 displays the volume and type of the complaints we
 received, and figure 2 displays the disposition of those
 complaints.




 Figure 1                                                   Figure 2

 Hotline Complaints                                         Disposition of Complaints
 October 1, 2002 to March 31, 2003                          October 1, 2002 to March 31, 2003
 (Total = 994)
                                                                                    Referred to
                                                                Referred to       USDA Agencies
                                                              FNS for Tracking     for Response     Referred to
                       Participant                                  230                 460        State Agency
                         Fraud                                                                          52
                          603




    Waste/
                                               Health/
Mismanagement
                                  Opinion/     Safety         Referred to
     139      Employee          Information      15         USDA or Other                             Referred to
            Misconduct               68                      Agencies for Filed Without Referred to Other Law
                169
                                                             Information-    Referral-  OIG Audit or Enforcement
                                                            No Response Insufficient Investigations Agencies
                                                               Needed      Information for Review         1
                                                                 160            51          40




                                                                                                              29
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests for the Period October 1,
 2002, to March 31, 2003


Number of FOIA/PA Requests Received                 164

Number of FOIA/PA Requests Processed:               129

     Number Granted                     33
     Number Partially Granted           23
     Number Nondisclosed                73

Reasons for Denial:

     No Records Available               14
     Referred to Other Agencies         34
     Denied in Full (Exemption 7A)       4
     Request Withdrawn                   2
     Fee-Related                         2
     Not a Proper FOIA Request           4
     Not an Agency Record                3
     Duplicate Request                   4
     Other                               6

Requests for OIG Reports From Congress
and Other Government Agencies

     Received                           45
     Processed                          50

Appeals Processed                                     1

     Appeals Completely Upheld            0
     Appeals Partially Reversed           1
     Appeals Completely Reversed          0

Number of OIG Reports/Documents                      70
Released in Response to Requests

NOTE: A request may involve more than one report.

During this 6-month period, 25 audit reports were
published on the Internet at the OIG Web site:
www.usda.gov/oig.




30
Appendix I


                                INVENTORY OF AUDIT REPORTS ISSUED
                                 WITH QUESTIONED COSTS AND LOANS
                             BETWEEN OCTOBER 1, 2002, AND MARCH 31, 2003


                                                                         DOLLAR VALUES

                                                          QUESTIONED             UNSUPPORTEDa
                                              NUMBER    COSTS AND LOANS         COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                        43      $152,367,976            $84,046,464
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2002

B. WHICH WERE ISSUED DURING                        4         7,539,963               753,207
   THIS REPORTING PERIOD

    TOTALS                                        47      $159,907,939            $84,799,671

C. FOR WHICH A MANAGEMENT                          8
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

    (1) DOLLAR VALUE OF
        DISALLOWED COSTS

      RECOMMENDED FOR RECOVERY                              $2,287,836

      NOT RECOMMENDED FOR RECOVERY                            623,964                $27,484

    (2) DOLLAR VALUE OF                                      4,070,955
        COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                        39       153,124,840             84,772,187
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

    REPORTS FOR WHICH NO                          36       145,644,830             84,018,980
    MANAGEMENT DECISION WAS
    MADE WITHIN 6 MONTHS
    OF ISSUANCE

a
Unsupported values are included in questioned values.




                                                                                                  31
Appendix II


                            INVENTORY OF AUDIT REPORTS ISSUED
                   WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                         BETWEEN OCTOBER 1, 2002, AND MARCH 31, 2003


                                      NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT              16          $60,544,370
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2002

B. WHICH WERE ISSUED DURING              2           14,007,418
   THE REPORTING PERIOD

     TOTALS                             18          $74,551,788

C. FOR WHICH A MANAGEMENT                3
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

     (1) DOLLAR VALUE OF                            $30,023,610
         DISALLOWED COSTS

     (2) DOLLAR VALUE OF
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT              15           44,528,178
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

     REPORTS FOR WHICH NO               14           44,520,760
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE




32
Appendix III


                                 SUMMARY OF AUDIT REPORTS RELEASED
                              BETWEEN OCTOBER 1, 2002, AND MARCH 31, 2003

DURING THE 6-MONTH PERIOD BETWEEN OCTOBER 1, 2002, AND MARCH 31, 2003, THE OFFICE OF
INSPECTOR GENERAL ISSUED 31 AUDIT REPORTS, INCLUDING 3 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                             QUESTIONED    UNSUPPORTEDa    FUNDS BE
                                                 AUDITS        COSTS          COSTS         PUT TO
AGENCY                                          RELEASED     AND LOANS      AND LOANS     BETTER USE

AGRICULTURAL RESEARCH SERVICE                            1     $560,371       $138,607
ANIMAL AND PLANT HEALTH INSPECTION
  SERVICE                                                2
CHIEF INFORMATION OFFICER                                1
COMMODITY CREDIT CORPORATION                             1
FOOD AND NUTRITION SERVICE                               5     3,212,684       614,600        $7,418
FOOD SAFETY AND INSPECTION SERVICE                       1
FOREST SERVICE                                           4
MULTIAGENCY                                              2
NATURAL RESOURCES CONSERVATION
  SERVICE                                                1
OFFICE OF THE CHIEF FINANCIAL OFFICER                    2
OFFICE OF PROCUREMENT AND PROPERTY
  MANAGEMENT                                             1
RISK MANAGEMENT AGENCY                                   1
RURAL BUSINESS-COOPERATIVE SERVICE                       5     3,766,908                   14,000,000
RURAL DEVELOPMENT                                        1
RURAL HOUSING SERVICE                                    2
RURAL TELEPHONE BANK                                     1

    TOTALS                                          31        $7,539,963      $753,207    $14,007,418

    TOTAL COMPLETED:
      SINGLE AGENCY AUDIT                           29
      MULTIAGENCY AUDIT                              2
      SINGLE AGENCY EVALUATION                       0
      MULTIAGENCY EVALUATION                         0

    TOTAL RELEASED NATIONWIDE                       31

    TOTAL COMPLETED UNDER CONTRACTb                      3

    TOTAL SINGLE AUDIT ISSUEDc                           0

a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
 Indicates audits completed as Single Audit




                                                                                                        33
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN OCTOBER 1, 2002, AND MARCH 31, 2003

                                                                       QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                             COSTS          COSTS        PUT TO
RELEASE DATE       TITLE                                               AND LOANS      AND LOANS    BETTER USE

AGRICULTURAL RESEARCH SERVICE

020070001AT      FLORIDA A&M UNIVERSITY - SCIENCE CENTER                 $560,371      $138,607
2003/03/28       COOPERATIVE AGREEMENT

 TOTAL: AGRICULTURAL RESEARCH SERVICE                              1     $560,371      $138,607

ANIMAL AND PLANT HEALTH INSPECTION SERVICE

336010003CH      SAFEGUARDS TO PREVENT ENTRY OF PROHIBITED
2003/02/20       PESTS AND DISEASES INTO THE UNITED STATES
336010004CH      CONTROLS OVER PERMITS TO IMPORT
2003/03/31       BIOHAZARDOUS MATERIALS

 TOTAL: ANIMAL AND PLANT HEALTH INSPECTION SERVICE                 2

CHIEF INFORMATION OFFICER

880990004FM      FY 2002 NATIONAL INFORMATION TECHNOLOGY
2002/12/12       CENTER GENERAL CONTROLS REVIEW

 TOTAL: CHIEF INFORMATION OFFICER                                  1

COMMODITY CREDIT CORPORATION

064010015FM      FY 2002 COMMODITY CREDIT CORPORATION
2002/12/26       FINANCIAL STATEMENTS

 TOTAL: COMMODITY CREDIT CORPORATION                               1

FOOD AND NUTRITION SERVICE

270990014TE      FOOD STAMP PROGRAM ADMINISTRATIVE COSTS
2003/02/07
276010012AT      FOOD STAMP EMPLOYMENT AND TRAINING PROGRAM -           $3,152,731     $614,600
2003/03/31       TENNESSEE
276010014KC      NSLP-CHARTWELLS FSMC-COST REIMBURSABLE                                                 $7,418
2002/12/23       CONTRACTS IN MISSOURI
276010028CH      FOOD STAMP ADMINISTRATIVE COSTS                          $59,953
2003/02/27
276010029CH      CONTROLS OVER ACCESS, DISCLOSURE AND USE
2003/02/26       OF SOCIAL SECURITY NUMBERS

 TOTAL: FOOD AND NUTRITION SERVICE                                 5    $3,212,684     $614,600         $7,418

FOOD SAFETY AND INSPECTION SERVICE

240990004HY      IMPORTED MEAT AND POULTRY REINSPECTION
2003/02/25       PROCESS PHASE II

 TOTAL: FOOD SAFETY AND INSPECTION SERVICE                         1

FOREST SERVICE

084010001FM      MONITORING OF THE FY 2002 FOREST SERVICE
2003/01/09       FINANCIAL STATEMENT AUDIT
084010002FM      FY 2002 FOREST SERVICE FINANCIAL STATEMENTS -
2003/02/28       SUMMARY OF IT FINDINGS
086010030SF      REVIEW OF FS SECURITY OVER EXPLOSIVES/MUNITIONS
2003/03/31       MAGAZINES LOCATED WITHIN NATIONAL FOREST SYSTEM
086010033SF      REVIEW OF FS SECURITY OVER U.S. BORDERS
2003/01/17       ENCOMPASSING NATIONAL FOREST SYSTEM LAND

 TOTAL: FOREST SERVICE                                             4

MULTIAGENCY

504010045FM      FY 2001 USDA WORKING CAPITAL FUND FINANCIAL
2002/11/20       STATEMENTS
504010047FM      FY 2002 USDA FINANCIAL STATEMENTS
2003/01/15

 TOTAL: MULTIAGENCY                                                2

34
                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   BETWEEN OCTOBER 1, 2002, AND MARCH 31, 2003

                                                                    QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                          COSTS          COSTS        PUT TO
RELEASE DATE       TITLE                                            AND LOANS      AND LOANS    BETTER USE

NATURAL RESOURCES CONSERVATION SERVICE

100050001KC    EQIP COST SHARE PRACTICE APPROVALS/
2002/11/21      SPECIFICATIONS IN NEBRASKA

 TOTAL: NATURAL RESOURCES CONSERVATION SERVICE                  1

OFFICE OF THE CHIEF FINANCIAL OFFICER

114010013FM     REVIEW OF FY 2002 NATIONAL FINANCE CENTER’S
2002/11/20      INTERNAL CONTROL STRUCTURE
114010014FM     AGREED-UPON PROCEDURES: RETIREMENT, HEALTH
2002/11/14      BENEFITS & LIFE INSURANCE WITHELD
                CONTRIBUTIONS SUBMITTED TO OPM

 TOTAL: OFFICE OF THE CHIEF FINANCIAL OFFICER                   2

OFFICE OF PROCUREMENT AND PROPERTY MANAGEMENT

890990001HQ     DEPARTMENTAL COMPLIANCE WITH THE NATIONAL
2002/10/21      ENERGY POLICY ACTS AND EXECUTIVE ORDER 13123

 TOTAL: OFFICE OF PROCUREMENT AND PROPERTY MANAGEMENT           1

RISK MANAGEMENT AGENCY

054010011FM     FY 2002 FCIC FINANCIAL STATEMENTS
2003/01/09

 TOTAL: RISK MANAGEMENT AGENCY                                  1

RURAL BUSINESS-COOPERATIVE SERVICE

340990003AT     RD - AUDIT TERRY MANUFACTURING B&I
2003/01/22      GUARANTEED LOANS
340990004CH     BUSINESS INDUSTRY LOAN – EXCELSIOR -
2002/12/19      HENDERSON MANUFACTURING COMPANY
346010003CH     ROCKY MOUNTAIN SUGAR GROWERS COOPERATIVE
2003/03/11
346010004AT     LENDER SERVICING OF B&I GUARANTEED LOANS             $3,766,908
2003/01/10
346010007SF     RURAL DEVELOPMENT - LIQUIDATION OF B&I                                           $14,000,000
2002/12/04      GUARANTEED LOAN - WASHINGTON STATE

 TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                     5     $3,766,908                  $14,000,000

RURAL DEVELOPMENT

854010005FM    FISCAL YEAR 2002 RURAL DEVELOPMENT FINANCIAL
2003/01/10       STATEMENTS

 TOTAL: RURAL DEVELOPMENT                                       1

RURAL HOUSING SERVICE

040050010SF     CITRUS MANOR DEVELOPMENT - FINANCIAL
2003/03/25      STATEMENT AUDIT FOR YEAR ENDED 12/31/2002
040050011SF     PARKVIEW PROPERTIES - FINANCIAL STATEMENT
2003/03/25      AUDIT FOR YEAR ENDED 12/31/2002

 TOTAL: RURAL HOUSING SERVICE                                   2

RURAL TELEPHONE BANK

154010003FM     FISCAL YEAR 2002 RTB FINANCIAL STATEMENTS
2002/12/20

 TOTAL: RURAL TELEPHONE BANK                                    1

       GRAND TOTAL:                                            31    $7,539,963     $753,207     $14,007,418




                                                                                                          35
